          SENSITIVE BUT UNCLASSIFIED

      United States Department of State
    and the Broadcasting Board of Governors
              Office of Inspector General




            Report of Inspection

  Broadcasting Board of
Governors’ Operations in
        Russia
  Report Number ISP-IB-07-32, May 2007




                            IMPORTANT NOTICE
This report is intended solely for the official use of the Department of State or the
Broadcasting Board of Governors, or any agency or organization receiving a copy
directly from the Office of Inspector General. No secondary distribution may be made,
in whole or in part, outside the Department of State or the Broadcasting Board of
Governors, by them or by other agencies or organizations, without prior authorization
by the Inspector General. Public availability of the document will be determined by
the Inspector General under the U.S. Code, 5 U.S.C. 552. Improper disclosure of
this report may result in criminal, civil, or administrative penalties.




          SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED



                                TABLE OF CONTENTS

KEY JUDGMENTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
CONTEXT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
MANAGEMENT ISSUES . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
           Voice of America, Moscow . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
           Radio Free Europe/Radio Liberty, Moscow, St. Petersburg, and Kazan . . . . 6
           Human Resources . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8
           Radio Liberty Moscow Relationship to Prague Office . . . . . . . . . . . . . . . . . . 9
PROGRAM ISSUES . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
      Embassy Contact . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
      Impact of Broadcasting Board of Governors Programs in Russia . . . . . . . 12
FORMAL RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15
INFORMAL RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17
PRINCIPAL OFFICIALS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19
ABBREVIATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21




                            SENSITIVE BUT UNCLASSIFIED
                       SENSITIVE BUT UNCLASSIFIED




                               KEY JUDGMENTS

     •   The Broadcasting Board of Governors (BBG) carries out significant and
         diverse programs in Russia. Radio Free Europe/Radio Liberty (RFE/RL),
         an International Broadcasting Bureau (IBB) marketing office, and
         Voice of America (VOA) have well-run offices in Moscow and networks of
         freelancers across Russia committed to achieving BBG objectives.

     •   BBG broadcasting is losing its access to the Russian people due to changes
         in media trends and to subtle pressure from the authorities to discourage
         Russian radio and television stations from hosting foreign programming.

     •   Shortwave listenership is rapidly declining. VOA’s Russian news service is
         shifting from radio to television as a more effective way to reach a wider
         audience, but it is increasingly difficult to find stations that will place BBG
         programs.

     •    IBB recruits affiliate stations to rebroadcast VOA and RFE/RL products.
         Russian authorities who license and tax broadcasters are discouraging poten-
         tial affiliates from rebroadcasting BBG material. The three dozen
         BBG affiliates of a few years ago are reduced to four. The embassy
         is working with BBG on this issue.

     •   Keeping Russian staff is a growing challenge because comparable jobs in the
         Russian electronic media have better salary and benefit packages and
         because of a perception that working for U.S.-funded media
         can mean blacklisting in the domestic market.

     •   VOA operates a bureau office in Moscow, but the office is so far from down
         town Moscow that it inhibits coverage of events in the capital.

    The inspection took place in Washington, DC, between September 4 and 27,
2006, and in Moscow, Russia, between September 29 and November 20, 2006. Am-
bassador Eileen A. Malloy (team leader), Leslie Gerson (deputy team leader), and
Francis B. Ward conducted the inspection of BBG operations in Russia.




OIG Report No. ISP-IB-07-32, Inspection of the BBGs’ Operations in Russia, May 2007        1 .


                       SENSITIVE BUT UNCLASSIFIED
      SENSITIVE BUT UNCLASSIFIED




2 .     OIG Report No. ISP-IB-07-32, Inspection of the BBGs’ Operations in Russia, May. 2007


      SENSITIVE BUT UNCLASSIFIED
                       SENSITIVE BUT UNCLASSIFIED




                                         CONTEXT

    BBG has three distinct operations in Russia. VOA has a Moscow bureau office
that supports the English worldwide service and the Russian language service. RFE/
RL conducts programs inside Russia in several languages and has offices in Moscow,
St. Petersburg, and Kazan. IBB has marketing offices for Russia in Prague and Mos-
cow to promote and expand BBG programming to Russian audiences.

     All three BBG operations face growing Russian government restrictions on their
work and the danger of losing quality staff to the highly competitive Russian media
job market. The Russian government exerts growing control over all media, particu-
larly broadcasting. The message from local broadcasts is increasingly anti-American.
The American electronic media content, other than news selected by the pro-govern-
ment channels that reaches Russian audiences, is either the dubbed American enter-
tainment programs or the programming from BBG sources. New technologies such
as satellite radio and television, cable systems, Internet access to electronic media,
and the shift from analog to digital programming are all changing Russian access to
information. BBG can no longer rely on the shortwave listening audiences of the
Cold War era. Major Russian stations refuse to place U.S government programming
for reasons that include a preference for pure entertainment, concerns by broadcast-
ers that they might displease the government, and Russian government licensing
regulations limiting foreign content.

     In the 1990s, BBG built a network of over 30 affiliate radio stations that re-
broadcast its products. In recent months the affiliates have been advised that they
could lose their licenses or be hit with large tax burdens if they continue to rebroad-
cast foreign material. Stations have decided not to take the risk. There are now
only four affiliates. An IBB marketing team speaking for VOA and RFE/RL makes
periodic visits to Russia to support the search for affiliates. They were unsuccessful
in the spring of 2006, competing against other companies (some with close ties to
the authorities) for a license for an FM radio frequency. An opportunity to compete
in late 2006 has been postponed until 2007.

   VOA Russian radio only broadcasts two hours a day. RFE/RL Russian radio
programming is on the air 24-hours a day. Because television is the dominant source




OIG Report No. ISP-IB-07-32, Inspection of the BBGs’ Operations in Russia, May 2007       3 .


                       SENSITIVE BUT UNCLASSIFIED
                   SENSITIVE BUT UNCLASSIFIED



      of information for most Russians, VOA is shifting to a televised weekly program:
      “Windows on the World” and a daily program called “Focus.” The only national
      television station that will replay VOA material is TV3, which has an American citi-
      zen among its owners. It reaches all major cities in Russia and has 70 million poten-
      tial viewers. This is a solid mid-level audience rating. Terrestrial or cable network ac-
      cess is essential as satellite dish use in Russia is rare. In the last days of the Moscow
      inspection, IBB learned that the American participant in TV3 had been bought out.
      If either the change of ownership or government pressure causes TV3 to drop VOA
      programming, there is no apparent alternative broadcaster. Until such time as direct-
      to-home satellite television reception becomes a more popular medium, or computer
      televiewing matures in Russia, VOA’s Russian television initiatives will be frustrated.




4 .                     OIG Report No. ISP-IB-07-32, Inspection of the BBGs’ Operations in Russia, May. 2007


                   SENSITIVE BUT UNCLASSIFIED
                       SENSITIVE BUT UNCLASSIFIED




                         MANAGEMENT ISSUES



VOICE OF AMERICA, MOSCOW
     BBG Washington officers cited concern about the location of the Moscow bu-
reau in an apartment complex an hour’s drive outside downtown Moscow. An earlier
bureau chief had chosen the location in the 1990’s for its proximity to the airport
and moderate cost. But that was before growing automobile ownership had created
the Moscow traffic problems of today. The VOA correspondent, in her fourth year
as Moscow bureau chief, spends much of her time traveling throughout Eastern
Europe and the states of the former Soviet Union. The office location, although
convenient to the airport, makes covering events in downtown Moscow difficult.
The office has a small studio and generous space for the correspondent, the adminis-
trative assistant, a producer, and visiting contract stringers.

         RFE/RL has a large office in downtown Moscow. While all of its space is
in use, it still manages to host a colocated IBB marketing representative. On a visit
to Moscow during the inspection, RFE/RL Washington leadership offered to enter-
tain a VOA request for colocation in Moscow, as is done elsewhere. The Office of
Inspector General (OIG) team informally recommended that VOA review the cost
effectiveness of relocating the office to central Moscow.

         The correspondent would like closer cooperation with the embassy but finds
it difficult to attend all but the most important embassy events. First, the remoteness
of the VOA offices makes attendance at events difficult. Second, the bureau chief
understands that VOA News Washington has advised its correspondents to keep
their distance from embassies in the wake of VOA’s withdrawal from International
Cooperative Administrative Support Services (ICASS) agreements worldwide. VOA’s
only administrative contact with the embassy in Moscow is the processing of person-
nel matters for the administrative assistant and driver.

        By leaving ICASS, the VOA office has lost its access to the embassy mail and
pouch systems, leaving the only dependable mail service packages sent by commer-
cial courier service from VOA Washington every few weeks. The OIG team sug-
gested that VOA explore with the embassy a partial ICASS arrangement that might
provide more secure and regular mail delivery.

OIG Report No. ISP-IB-07-32, Inspection of the BBGs’ Operations in Russia, May 2007       5 .


                       SENSITIVE BUT UNCLASSIFIED
                     SENSITIVE BUT UNCLASSIFIED



              Journalists and foreigners are increasingly the targets of physical attacks
      in Russia. (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
      (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
      (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
      (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
      (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
      (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)


               The OIG team reviewed VOA Moscow bureau files, budget records, files of
      payments and reimbursements, and carried out a cash count. The current admin-
      istrative replenishment allotment is $1,500. When the second correspondent posi-
      tion was eliminated three years ago, the replenishment allotment was reduced from
      $2,000. The accounts balanced, but the VOA bureau had less than $6.30 in operat-
      ing cash at the time of the inspection because the July 20 request for funds had still
      not been processed by the Paris office (and then sent on to Charleston). The office
      is frequently dunned by its vendors because it has such a small fund available, and
      reimbursements are slow. Because the correspondent is often out of Russia on as-
      signment and only she can sign/certify for funding requests and commitments, she
      must then leave a large amount of personal funds behind to keep the office afloat.
      Recurring services payments are generally late as well.



          Recommendation 1: The Voice of America should return the level of the cash
          allotment for the Moscow office to $2,000. (Action: VOA)




      RADIO FREE EUROPE/RADIO LIBERTY, MOSCOW,
      ST. PETERSBURG, AND KAZAN
               RFE/RL offices are in a multistory building in the heart of Moscow with as
      many as 100 contractors1 working in new, well-equipped offices and studios at any
      one time. These include the RFE/RL Russian reporters, producers and support
      staff, an IBB marketing representative, and Ukrainian, Kyrgyz, Turkmen, Tatar-Bash-
      kir, Iraqi, Tajik, Afghan, Uzbek, and Armenian broadcasters.


      1
       These include core staff who serve on one year contracts and stringers on a variety of shorter
      term contracts.



6 .                        OIG Report No. ISP-IB-07-32, Inspection of the BBGs’ Operations in Russia, May. 2007


                     SENSITIVE BUT UNCLASSIFIED
                       SENSITIVE BUT UNCLASSIFIED



    The BBG/IBB marketing representative in Russia has a small office in the RFE/
RL office suite in downtown Moscow. He makes tours of the provinces to find and
sign up affiliate stations, participates in media trade shows, and programs seminars
on topics like radio and television management for local stations. He helps affiliates
with technical problems, ensures that they have compatible equipment, and informs
them of frequency changes in VOA and RFE/RL transmission. He does not handle
money in any way. His travel is funded out of Prague and paid electronically. His
only connection to the embassy is through the public affairs section distribution unit,
which clears VOA affiliates’ equipment through customs.

    RFE/RL Moscow is registered as a foreign entity under the aegis of the Ministry
of Foreign Affairs. At a time when foreign companies and nongovernmental orga-
nizations have been expelled for minor bureaucratic errors, RFE/RL Moscow (the
Russian Service) is always timely and precise in their paperwork. RFE/RL Kazan
(the Tatar Service), which is currently unregistered, is petitioning the Ministry of
Foreign Affairs for a separate registration. BBG philosophy is that it broadcasts to
peoples, not states, and thus is structured along the lines of language services, not
nations. Russia wants all RFE/RL broadcasters registered as a single foreign entity.
The Ministry has not yet responded, but if the licensing request is denied bureau-
cratic harassment of the Kazan office is possible.

     RFE/RL Moscow’s chief bookkeeper keeps well-ordered files. There are regu-
lar reports made through Ernst and Young and routine (annual) and random audits
as well as the monthly payroll reports. A recent Price Waterhouse team visit pro-
nounced RFE/RL Russia’s management controls to be in order. RFE/RL is con-
sidered a representative of a foreign company in Russia, rather than a representative
of the U.S. government. It therefore does not pay the 18 percent value added tax on
rentals, but it does pay all other taxes including the value added tax on purchases and
the 13 percent income tax.

    There are formal labor contracts for the 73 core employees and over 700 free-
lancers (stringers) countrywide paid in accord with Russian labor law. The annual
budget of the Moscow office is over $3 million and rising. In one recent month,
the office spent $170,000 on local salaries and $90,000 on freelancers, with taxes
and pension payments totaling over $300,000. The St. Petersburg office with eight
people has a budget of $45,000. In addition RFE/RL Moscow pays for office rental,
maintenance of a computer network serving up to 100 people, and utilities. RFE/
RL staff maintains the computers and the building because landlords or outside
information technology contractors are neither dependable nor affordable.




OIG Report No. ISP-IB-07-32, Inspection of the BBGs’ Operations in Russia, May 2007       7 .


                       SENSITIVE BUT UNCLASSIFIED
                   SENSITIVE BUT UNCLASSIFIED



          The Kazan-based service has an office staff of 12 plus 27 freelance correspon-
      dents operating in 15 regions of Russia with a budget of $220,000. At the time of
      the inspection, it was independent of the Moscow office and reported directly to
      Prague with which it operates a joint web site. Effective January 1, 2007, all RFE/
      RL activity in Russia, including that of the Tatar-Bashkir Service, is carried out as a
      unified operation by its Moscow office.



      HUMAN RESOURCES
          The declining dollar, the rising cost of doing business in Russia, the increased
      official and unofficial anti-Americanism, and other morale issues challenge BBG to
      keep good Russian staff. The expanding economy, the demand for entertainment,
      and new technologies all contribute to rising media salaries for professionals in the
      commercial market. BBG employees are motivated by loyalty and high professional
      ideals, but comparatively low salary, poor benefits, and the possibility of government
      ostracism from other media outlets are beginning to drive away competent staff.

          During the inspection, three relatively new RFE/RL staff took higher paying
      jobs in the local electronic media. VOA cannot find a person with sufficient skills
      who will take the salary ($900 per month) that they are offering for their vacant
      producer’s position. When someone is found, they are generally from the provinces
      and lack contacts in the Moscow media community, need additional training, and will
      probably not stay more than a year before leaving for a better paying job.

           RFE/RL senior staff, many of them nationally respected journalists, have the
      skills to be hired away, but several staff told the inspectors that they are unlikely to
      get work in the major media organs, the Russian government, or major corporations
      because they are tainted by their association with the United States. This situation,
      although primarily evident in the electronic media, is spreading to the print media.
      That does not encourage recruitment. This is a serious human capital problem that
      is likely to become more serous as the dedicated, experienced staff moves on with-
      out a comparable successor generation inclined to take their places.

          Staff members complain that as their salaries become less competitive, they also
      lack the social benefits package that other employees of private sector media and of
      RFE/RL in other countries have. RFE/RL employees pay into the mandatory Rus-
      sian national benefits plan, but the pension of senior staff members will yield only
      $45 per month. For medical care employees still have to pay high rates to private




8 .                     OIG Report No. ISP-IB-07-32, Inspection of the BBGs’ Operations in Russia, May. 2007


                   SENSITIVE BUT UNCLASSIFIED
                       SENSITIVE BUT UNCLASSIFIED



doctors and hospitals. Several sources report that the British Broadcasting Corpora-
tion, under pressure from their employees in Russia, recently adopted an employ-
ment package that offers retirement and health benefits and salaries up to three times
what RFE/RL offers. One RFE/RL reporter even mentioned talk of forming a
labor union.



    Recommendation 2: The Broadcasting Board of Governors should review the
    salary and benefits package of the Russian staff for Radio Free Europe/Radio
    Liberty and Voice of America compared to the current job market in the elec-
    tronic media (Action: BBG)




RADIO FREE EUROPE/RADIO LIBERTY MOSCOW RELATIONSHIP TO
PRAGUE OFFICE
    RFE/RL Moscow’s staff perceives a lack of equality in the treatment of staff
between their office and the Prague office with its program, editorial, and manage-
ment functions. They assert that 90 percent of their programming is done in Russia,
not Prague, where the editorial and management function are located. They claim
that a large, less-challenged staff in Prague gets a better salary package, a housing
allowance, and (most annoying) a Russian based in Prague gets a per diem when trav-
eling in Russia that is double what a Russian citizen employee from Moscow would
make on the same trip.

     Moscow staff say that their cost efficient move into a new building came only
because of Moscow management skills and because Washington leadership did not
allow the bureaucratic Prague office to interfere. RFE/RL has a morale issue in Rus-
sia. The OIG team informally recommended that RFE/RL management in Wash-
ington review the concerns of the RFE/RL Russia staff, the salary packages of the
two offices, and be prepared to address Russia-based staff concerns.




OIG Report No. ISP-IB-07-32, Inspection of the BBGs’ Operations in Russia, May 2007      9 .


                       SENSITIVE BUT UNCLASSIFIED
       SENSITIVE BUT UNCLASSIFIED




10 .     OIG Report No. ISP-IB-07-32, Inspection of the BBGs’ Operations in Russia, May. 2007


       SENSITIVE BUT UNCLASSIFIED
                       SENSITIVE BUT UNCLASSIFIED




                              PROGRAM ISSUES



EMBASSY CONTACT
    VOA and RFE/RL bureau leadership ask for more regular contact with the
embassy and invitations to cover visits by senior U.S. officials. RFE/RL Russian
staff would like to be seen as American journalists operating in Russia. They want
to be sure that the Russian government knows that the embassy knows they are
there. The OIG team has determined that in fact the embassy’s public affairs section
works closely with RFE/RL leadership regarding the new licensing regulations that
discourage Russian stations from rebroadcasting RFE/RL programs. The informa-
tion officer, public affairs officer, deputy chief of mission, and Ambassador have all
met with visitors from the BBG and RFE/RL senior staff to support their applica-
tion for additional frequencies. The press section has made a special effort to invite
VOA and RFE/RL reporters to press opportunities and helped their correspondents
get proper documentation. During the inspection, an RFE/RL reporter attended
an embassy press event, and the VOA correspondent declined attending an event
because of the distance from the bureau office.

          With the personnel changes and the distraction of multiple, high-level of-
ficial visits in recent months, some contacts between BBG operations in Russia and
the embassy may have been interrupted. The OIG team recommended informally
that the embassy’s new assistant information officer for broadcasting arrange meet-
ings with VOA and RFE/RL officials and make these contacts routine. Before the
inspection team left Moscow, the officer had made his initial visit to the VOA office.

        The embassy’s English language officer and VOA’s special English service are
cooperating on three distinct programs: (1) a jointly funded speaker program tour
by a VOA Special English personality to Russian centers for learning English; (2) a
$1,500 grant from Moscow’s public affairs section for a Russian teacher-trainer at
the State University at Kursk to encourage students to develop multimedia teaching
materials about various aspects of American culture and language; and (3) a 15-vol-
ume collection of textbooks written for Russian schools by alumni of U.S. exchange




OIG Report No. ISP-IB-07-32, Inspection of the BBGs’ Operations in Russia, May 2007      11 .


                       SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED



       programs with seed money from the Department’s Bureau of European and Eur-
       asian Affairs. In addition, a Russian publisher has promised to publish any textbooks
       written as a result of this project. Each joint project advances both the embassy’s
       and VOA’s objectives.



       IMPACT OF BROADCASTING BOARD OF GOVERNORS PROGRAMS IN
       RUSSIA
            Listenership for BBG products in Russia remains low: VOA TV (1.2 percent),
       VOA radio in Russian (1.2 percent), and not much better for RFE/RL (2.6 percent).
       Five percent is viewed as a minimum standard of success. TV3, which programs
       VOA television, has a potential audience of 70 million, but the 30-minute VOA
       programs are only on the air for a few hours per week. Competition from other
       stations, government-created obstacles, and questions about the attractiveness of
       BBG programs, as well as the difficulty of finding the frequencies of BBG products
       on the air, are all challenges. BBG broadcasters post schedules on their web sites,
       but Internet penetration in Russia is below 15 percent, and BBG listeners are not all
       computer owners.

               FM is the most popular radio medium in Russia, but government pressure on
       BBG’s FM band affiliates is causing them to cancel their affiliation. There is a sepa-
       rate Russian FM band where RFE/RL does broadcast, but only a fraction of radios
       in Russia receive it. One medium wave band station in St. Petersburg uses RFE/RL
       materials. Shortwave band radio is out-of-date technology and in decreasing use
       in most urban areas. There is still a small but loyal audience of shortwave listeners
       around the country, but frequencies change often, and announcements of changes
       are not well advertised, even by the embassy.

                RFE/RL staffers argue that the low listenership statistics are not conclusive,
       and when things get worse in Russia more people will try to listen to RFE/RL. They
       say that the multiplier effect is what matters, and that serious media professionals
       seek out RFE/RL, which distributes their message. They maintain that RFE/RL is
       still a powerful brand name in Russia. What matters is not that one listens to RFE/
       RL every day, but that one knows that it is available around the clock, and “that when
       you need the truth, you can get it” and that they are there “just in case.”

               This is an environment in which a crusading journalist has just been mur-
       dered in an obviously professional “hit.” The murdered Anna Politkovskaya’s last
       interview was done at RFE/RL two days before her death. It dealt with the topic


12 .                     OIG Report No. ISP-IB-07-32, Inspection of the BBGs’ Operations in Russia, May. 2007


                    SENSITIVE BUT UNCLASSIFIED
                       SENSITIVE BUT UNCLASSIFIED



of torture of government opponents, something no other station in Russia would
cover. There is anecdotal evidence that many Russians turned to RFE/RL to hear
the replays of the interview.

       All elements of American public diplomacy are now under great scrutiny,
with both the executive and legislative branches and private sector critics demanding
proof of effectiveness. IBB’s Office of Performance Review, VOA, and RFE/RL
through contracts with Intermedia, and the Department’s Bureau of Intelligence and
Research all conduct frequent and detailed listener surveys and opinion polls. What
seems to be missing is a standard to determine by any means other than “fan mail”
and anecdotes whether U.S. programming to the region in the various languages is
having an impact providing a product attractive to Russian audiences.

         In the course of the inspection of the U.S. Mission in Russia, the OIG team
asked a small sample of Russian employees of BBG entities, the embassy, and non-
governmental organizations working with American educational exchange programs
about their perceptions of BBG programming in Russia. They uniformly said that
BBG broadcasting is not lively enough to compete for a younger audience and lacks
the quality of today’s Russian programming, particularly on television. They argue
that even without political interference, BBG success will depend on its ability to
attract an audience with programs that have more energy and youth appeal. In ad-
dition to more attractive news reports, content about life in America continues to be
of interest. There are still Russians who are curious but uninformed about American
society. Russian-dubbed American commercial programs about science, natural won-
ders, and a modern version of the old “Wild America,” would be welcome. These
programs seemed to have disappeared after budget cuts in Washington.

        The OIG team informally recommended that VOA TV make further use of
independent evaluators, using focus groups in Russia, to get a frank assessment of
the professional quality and attractiveness of VOA TV programming to Russia.

        RFE/RL, based on extensive research that indicates that young people in
Russia do not turn to radio as a primary resource for news and information, has up-
dated its programming in recent years to aim primarily at information-seekers age 35
and older.

        There is a need to develop a better way to publicize both VOA and RFE/RL
frequencies. The RFE/RL representative has just signed a contract for $350,000 for
advertising for RFE/RL. This is a small amount in the expensive Russian market,
but a start.




OIG Report No. ISP-IB-07-32, Inspection of the BBGs’ Operations in Russia, May 2007     13 .


                       SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED



                RFE/RL and VOA are preparing for a future where the audience accesses
       the electronic media through the Internet. Moscow-produced material does ap-
       pear on RFE/RL and VOA web sites, and those with Internet access can search for
       stories and play the sound version. RFE/RL has revamped its Russian-language
       web site for Russia to attract younger audiences, which research indicate increasingly
       turn to the Internet for news ands information, in addition to television. Public use
       of these web sites is growing while television and FM radio broadcasting are being
       limited by the authorities. As Internet penetration expands in Russia, these web sites
       may very well become BBG’s primary medium for reaching the Russian people.




14 .                    OIG Report No. ISP-IB-07-32, Inspection of the BBGs’ Operations in Russia, May. 2007


                    SENSITIVE BUT UNCLASSIFIED
                       SENSITIVE BUT UNCLASSIFIED




                FORMAL RECOMMENDATIONS

Recommendation 1: The Voice of America should return the level of the cash al-
  lotment for the Moscow office to $2,000. (Action: VOA)

Recommendation 2: The Broadcasting Board of Governors should review the sal-
  ary and benefits package of the Russian staff for Radio Free Europe/Radio Lib-
  erty and Voice of America compared to the current job market in the electronic
  media (Action: BBG)




OIG Report No. ISP-IB-07-32, Inspection of the BBGs’ Operations in Russia, May 2007   15 .


                       SENSITIVE BUT UNCLASSIFIED
       SENSITIVE BUT UNCLASSIFIED




16 .     OIG Report No. ISP-IB-07-32, Inspection of the BBGs’ Operations in Russia, May. 2007


       SENSITIVE BUT UNCLASSIFIED
                       SENSITIVE BUT UNCLASSIFIED




             INFORMAL RECOMMENDATIONS

Informal recommendations cover operational matters not requiring action by orga-
nizations outside the inspected unit and/or the parent regional bureau. Informal
recommendations will not be subject to the OIG compliance process. However, any
subsequent OIG inspection or on-site compliance review will assess the mission’s
progress in implementing the informal recommendations.

The office of the Moscow VOA bureau chief is far enough from downtown Mos-
cow that the correspondent is unable to attend many Moscow news events including
Embassy Moscow press conferences.

Informal Recommendation 1: Voice of America should review the cost-effective-
ness of moving its office to a more central location in Moscow.

Since losing its embassy mail box by withdrawing from ICASS, the VOA office in
Moscow has lost any safe or regular mail delivery other than a periodic Federal Ex-
press shipment from the Washington support office.

Informal Recommendation 2: Voice of America should identify and implement
a more regular and secure mail delivery system for its Moscow bureau, perhaps by
increasing the existing participation in the embassy’s International Cooperation Ad-
ministrative Support Services program.

In an environment where most electronic media professionals have better salary and
benefit packages than are paid by RFE/RL, the Moscow staff feels it is being taken
for granted and even discriminated against vis-a-vis Prague Russian service staff.

Informal Recommendation 3: Radio Free Europe/Radio Liberty management
in Washington should respond to the concerns of the Radio Free Europe/Radio
Liberty Russian staff about its salary, benefits package, and the perception that there
is different treatment for different offices in Prague, Moscow, Kazan, and St. Peters-
burg.

Voice of America and Radio Free Europe/Radio Liberty representatives expressed
an interest in more direct access to mission officers. The embassy has a new assistant
information officer for broadcasting, and a new Foreign Service national information
assistant for broadcasting is being hired. Both could support more regular contact.


OIG Report No. ISP-IB-07-32, Inspection of the BBGs’ Operations in Russia, May 2007       17 .


                       SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED



       Informal Recommendation 4: Embassy Moscow should visit the Voice of America
       and Radio Free Europe/Radio Liberty bureaus and the International Broadcasting
       Bureau’s contract marketing representative and begin a regular exchange of messages
       on upcoming events and mutual concerns.

       Sympathetic interlocutors report that VOA TV products do not match current
       Russian commercial TV quality and are not attractive enough to an audience to win
       placement.

       Informal Recommendation 5: Voice of America should contract with independent
       evaluators to get a frank assessment of the professional quality and attractiveness of
       their television programming to Russia.




18 .                     OIG Report No. ISP-IB-07-32, Inspection of the BBGs’ Operations in Russia, May. 2007


                    SENSITIVE BUT UNCLASSIFIED
                       SENSITIVE BUT UNCLASSIFIED




                         PRINCIPAL OFFICIALS

                                                        Name                          Arrival Date


VOA Moscow Bureau Chief                                 Lisa McAdams                     07/2002


Radio Free Europe/Radio Liberty
  Head of Representation in Russia                      Elena I. Gloushkova                  1996


IBB Marketing Representative in Russia                  Oleg Rykov                           1998




OIG Report No. ISP-IB-07-32, Inspection of the BBGs’ Operations in Russia, May 2007                  19 .


                       SENSITIVE BUT UNCLASSIFIED
       SENSITIVE BUT UNCLASSIFIED




20 .     OIG Report No. ISP-IB-07-32, Inspection of the BBGs’ Operations in Russia, May. 2007


       SENSITIVE BUT UNCLASSIFIED
                       SENSITIVE BUT UNCLASSIFIED




                                ABBREVIATIONS


BBG                                   Broadcasting Board of Governors
IBB                                   International Broadcasting Bureau
ICASS                                 International Cooperative Administrative Support
                                      Services
OIG                                   Office of Inspector General
RFE/RL                                Radio Free Europe/Radio Liberty
VOA                                   Voice of America




OIG Report No. ISP-IB-07-32, Inspection of the BBGs’ Operations in Russia, May 2007      21 .


                       SENSITIVE BUT UNCLASSIFIED
 SENSITIVE BUT UNCLASSIFIED




SENSITIVE BUT UNCLASSIFIED
